Ni
10,

INTHE
SUPREME COURT OF THE UNITED STATES

Marcus Phillips
PETITIONER

(Your Name)

Vs.

 

s of America

—- RESPONDENT(S)

 

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.

Please check the appropriate boxes:
§J Petitioner has previously been granted leave to proceed tn forma pauperis in

the following court(s): . ..
Western District of Texas, San Antonio Division,

 

Fifth Circuit Court of Appeals

  

has not previously been granted leave to proceed tm forma
sin any other court.

 

paupe
(} Petitioner's affidavit or declaration in support of this motion is attached hereto.

affidavit or declaration is not attached because the court below

CO Petitioner's
and:

appointed counsel in the current proceedir

 

 

X} The appointment was made under the following provision of law:
_1BUSC3006A — -—— f or

fa copy of the order of appointment is appended. { 4: f
Dn Mag ff

 

   
 

Case 5:17-cr-00837-OLG Document 29 Filed 05/04/18 Page 1of 1

 

 

 

UNITED STATES DISTRICT COURT F | L E D

WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION MAY 04 2018
CLER

UNITED STATES OF AMERICA § WESTERNS; District coy

§ By. STRICT OF TE XS
vs. § Case Number.: DEPY CLERK

§  SA:17-CR-00837(1)-OLG
(1) MARCUS PHILLIPS §

Defendant

ORDER APPOINTING COUNSEL

The above-named defendant has testified under oath, or has otherwise satisfied this
court, that he/she is financially unable to obtain counsel and does not wish to waive
representation by counsel.

Therefore, in the interest of justice, Cynthia Hujar Orr is hereby APPOINTED to
represent the defendant in the above-styled and numbered cause.

This appointment shall remain in effect until further order of this court.

Itis so ORDERED this 4th day of May, 2018.

  

UNITED STATES MAGISTRATE JUDGE
